NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

FEB 6 2020

FOR THE NINTH CIRCUIT
ARTHUR LOPEZ,

No.

Plaintiff-Appellant,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS '

18-55520

D.C.No. 8:17-cv-00297-VBFMRW

v.
COSTA MESA POLICE DEPARTMENT;
et al.,

MEMORANDUM*

Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Valerie Baker Fairbank, District Judge, Presiding
Submitted February 4, 2020**
Before:

FERNANDEZ, SILVERMAN, and TALLMAN, Circuit Judges.

Arthur Lopez appeals pro se from the district court’s summary judgment in
his 42 U.S.C. § 1983 action alleging violations of the Fourth and Fourteenth
Amendments arising from a traffic stop. We have jurisdiction under 28 U.S.C.
§ 1291. We review de novo. Blankenhorn v. City of Orange, 485 F.3d 463, 470

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

/

(9th Cir. 2007). We affirm.
The district court properly granted summary judgment on Lopez’s Fourth
Amendment claim for defendants because Lopez failed to raise a genuine dispute
of material fact as to whether defendants lacked reasonable suspicion to stop his
vehicle or were unjustified in impounding the vehicle or conducting an inventory.
See Helen v. North Carolina, 574 U.S. 54, 60 (2014) (holding that to conduct a
traffic stop “officers need only reasonable suspicion—that is, a particularized and
objective basis for suspecting the particular person stopped of breaking the law”
(internal quotation marks omitted)); United States v. Torres, 828 F.3d 1113, 1120
(9th Cir. 2016) (“Once a vehicle has been legally impounded, the police may
conduct an inventory search without a warrant.”); Miranda v. City of Cornelius,
429 F.3d 858, 865 (9th Cir. 2005) (“The violation of a traffic regulation justifies
impoundment of a vehicle if the driver is unable to remove the vehicle from a
public location without continuing its illegal operation.”).
The district court properly granted summary judgment on Lopez’s
Fourteenth Amendment claim for defendants because Lopez failed to raise a
genuine dispute of material fact as to whether defendants acted with discriminatory
purpose. See Serrano v. Francis, 345 F.3d 1071, 1082 (9th Cir. 2003) (“To avoid
summary judgment, [the nonmoving party] ‘must produce Evidence sufficient to
permit a reasonable trier of fact to find by a preponderance of the evidence that the

2
* c

18-55520

decision was racially motivated.’” (citations and internal quotations marks
omitted)).
The district court did not abuse its discretion in denying Lopez’s motion to
amend his complaint to add claims against other potential defendants because those
claims were futile. See Bowles v. Reade, 198 F.3d 752,757-58 (9th Cir. 1999)
(setting forth standard of review and factors for denial of a motion to amend).
The district court did not abuse its discretion in denying Lopez’s motion to
amend to add claims under 42 U.S.C. § 1985 because the amendment would have
prejudiced defendants and caused undue delay in the litigation. See id.
The district court did not abuse its discretion in denying Lopez’s motions for
appointment of counsel because Lopez was able to articulate his claims and was
unlikely to succeed on the merits. See Palmer v. Valdez, 560 F.3d 965, 970 (9th
Cir. 2009) (setting forth standard of review and discussing factors to consider in
ruling on a motion to appoint counsel).
The district court did not abuse its discretion in denying Lopez’s motion to
recuse District Judge Fairbank and Magistrate Judge Wilner because Lopez failed
to demonstrate that a reasonable person would believe that either judges’
impartiality could be questioned. See United States v. Hernandez, 109F.3d 1450,
1453 (9th Cir. 1997) (setting forth standard of review and discussing standard for
recusal under 28 U.S.C. §§ 144 and 455).

3
l/U.

18-55520

We do not consider matters not specifically and distinctly raised and argued
in the opening brief, or arguments and allegations raised for the first time on
appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
Lopez’s motion for judicial notice is denied.
AFFIRMED.

4

ycU

18-55520

C ise 8:17-cv-00297-VBF-MRW Document 119 Filed 04/16/18

l

Page 1 of 1 PagelD#:872

JS-6

2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION

10
11
12

SA CV 17-00297-VBF-MRW

ARTHUR LOPEZ,

13

FINAL JUDGMENT

Plaintiff,

14
V.
15
16
17
18

CITY OF COSTA MESA,
COSTA MESA POLICE DEPARTMENT,
CHRISTOPHER WALK, and
ISIDRO GALLARDO,
Defendants.

19
20
21
22

Final judgment is hereby entered in favor of all defendants and against plaintiff
Arthur Lopez. IT IS SO ADJUDGED.

23
24
25
26
27
28

Dated: April 16, 2018

IM**,
Honorable Valerie Baker Fairbank
Senior United States District Judge

Case 8:17-cv-00297-VBF-MRW Document 118 Filed 04/16/18 Page lot 2 PagelD#:870

1
2
3
4
5

6
7
8

9
10

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

11
12
13

ARTHUR LOPEZ,
Plaintiff,

14
15
16
17
18
19

Case No. SA CV 17-00297 VBF (MRW)
ORDER
Adopting Report & Recommendation:

v.
COSTA MESA POLICE DEP’T,
CITY OF COSTA MESA,
CHRISTOPHER WALK, and
ISIDRO GALLARDO,

Granting Document #94 (Defendants’
Motion for Summary Judgment);
Directing Entry of Separate Judgment;
Terminating the Case (JS-6)

Defendants.

20

21
22
23
24
25

26
27
28

Pursuant to 28 U.S.C. § 636, the Court reviewed the complaint, see
CM/ECF Document (“Doc”) 1; the motion for summary judgment filed on
January 17, 2018 by all four named defendants (Docs 94-95); plaintiffs brief
and other materials filed January 31, 2018 in opposition to summary judgment
(Docs 99-101); defendants’ reply brief filed February 7, 2018 (Doc 103); the
Report and Recommendation issued by the United States Magistrate Judge on
February 23, 2018 (Doc ); plaintiffs objections filed March 9, 2018 (Doc 115)
and the defendant’s response filed March 15, 2018 (Doc 117); and the applicable

Case 8:17-cv-00297-VBF-MRW Document 118 Filed 04/16/18 Page 2 of 2 PagelD#:871

1

law. The Court also has reviewed each party’s response to its adversary’s

2

proposed Statement of Undisputed Facts and Conclusions of Law (Docs 105 and

3

111). Finally, the Court has reviewed the defendants’ evidentiary objections

4

(Doc 104) and plaintiffs response (Doc 110).

5

After engaging in de novo review of those portions of the Report to which

6

Plaintiff specifically objected, the Court finds no error of law, fact, or logic in

7

the well-reasoned R&R. Accordingly, the Court will accept the findings and

8

conclusions of the Magistrate Judge, and implement his recommendations.

9
ORDER

10
11

Plaintiffs objection [Doc #115] is OVERRULED.

12

The Feb. 23, 2018 Report & Recommendation [Doc #114] is ADOPTED.

13

Defendants’ motion for summary judgment [Doc #94] is GRANTED.

14

Summary judgment is granted to each and every named defendant.

15

The complaint is DISMISSED with prejudice.

16

Final judgment will be entered consistent with the R&R. As required by

17

Fed. R. Civ. P. 58(a), judgment will be a separate document.

18

The Clerk’s Office SHALL TERMINATE this case (JS-6).

19

IT IS SO ORDERED.

20

21

Dated: April 16,2018
Hon. Valerie Baker Fairbank
Senior United States District Judge

22
23
24

25
26
27

28
2

Case 8:17-cv-00297-VBF-MRW Document 114 Filed 02/23/18 Page 1 of 14 PagelD#:821

1
2
3
4
5

6
7

8
9
10

IN THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA

11
12
13

ARTHUR LOPEZ,

14
15
16
17
18

Plaintiff,

Case No. SA CV 17-297 VBF (MRW)
REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE
JUDGE

v.
COSTA MESA POLICE
DEPARTMENT, et al.,
Defendants.

19
20

21
22
23
24

25
26
27

28

This Report and Recommendation is submitted to the Honorable
Valerie Baker Fairbank, Senior United States District Judge, pursuant to
28 U.S.C. § 636 and General Order 05-07 of the United States District Court for
the Central District of California.
SUMMARY OF RECOMMENDATION
This is a pro se civil rights action. Plaintiff sued two local police officers
and their department after a traffic stop. Plaintiff claims that the stop, the
subsequent impounding and search of the car, and other conduct by the officers
and the department violated his constitutional rights.

Case 8:17-cv-00297-VBF-MRW Document 114 Filed 02/23/18 Page 2 of 14 Page ID #:822

1

The Court concludes that all of the defendants are entitled to summary

2

judgment. The undisputed facts could not lead any rational jury to conclude

3

that either officer’s actions rose to the level of constitutional violations.

4

Moreover, Plaintiffs other grievances against the police are too unintelligible

5

and utterly unsupported to warrant advancing to trial.

6

The Court therefore recommends that judgment be entered against

7

Plaintiff and the action dismissed.

8

FACTS AND PROCEDURAL HISTORY

9

Plaintiff Is Stopped for a Traffic Violation

10

Newport Boulevard is a major, multi-lane street in Costa Mesa. Plaintiff

11

made a left turn across the street into a business in the middle of a block - that

12

is, he did not turn at an intersection.

13

According to photos of the location, the dashboard video of the incident,

14

and a declaration from a city traffic engineer, Plaintiff made his turn between a

15

set of “crash cushions” (two to four feet in height) and a median (six inches in

16

height) that extended to the intersection. The portion where Plaintiff turned

17

was constructed with the same material as the higher median (red brick

18

surrounded by grey concrete edging). That lower portion is two inches in

19

height based on safety regulations related to the crash cushions. (Docket # 94-4

20

at 3-4.) A large left-turn arrow is painted on the pavement in the traffic lane as

21

drivers approach the gap and the intersection at 19th Street.1 (Docket #107

22

at 6.)

23
24
25

26
27

i

The video of the incident is lodged at Docket # 96. Plaintiffs
objection to the video (he claims he could not properly view it) is overruled he acknowledged at the hearing that the defense produced this material in
discovery in the summer of 2017, and took no steps to solve his alleged
problem accessing it.
The Court accepts and considers Plaintiffs late-filed photos,
including those depicting the traffic arrow painted on the roadway. (Docket

28
2

Case 8:17-cv-00297-VBF-MRW Document 114 Filed 02/23/18 Page 3 of 14 PagelD#:823

1

Defendants Walk and Gallardo are police officers in Costa Mesa. They

2

were on duty at the time of Plaintiff s ill-fated left turn. They observed Plaintiff

3

drive over the two-inch median. They stopped Plaintiff and cited him for

4

making an illegal turn on a divided highway in violation of California Vehicle

5

Code section 20651(a).2

6

During the traffic stop, the police discovered that Plaintiffs vehicle had

7

been unregistered and uninsured for nearly a year. (Docket # 94 at 13.)

8

(Plaintiff received a ticket from the police for a similar violation several weeks

9

earlier - he failed to rectify the violations and continued to drive the car.) The

10

police told Plaintiff and his children to get out of the vehicle. After a search of

11

the interior, the police had the car towed from the scene (a parking lot of a

12

closed coffee shop) and impounded it.

13

According to the audio recording of the incident, neither of the officers

14

used any unprofessional, racist, or derogatory language in the interaction with

15

Plaintiff. Plaintiff contends that the police threatened him with jail if he did not

16
17
18
19
20

21
22
23
24
25

26
27

28

# 107 at 6). Clearer photos are at Exhibit 8 of the declaration of Costa Mesa
traffic engineer Raja Sethuraman. (Docket # 94-4 at 9.)
The Court rejects Petitioner’s other late-filed submission. (Docket
#111 (presented on the morning of the summary judgment hearing).)
Plaintiffs surreply filing purported to respond to the defense’s reply papers.
The filing was not authorized by the Court or the Local Rules. Moreover, the
contents of the chaotic filing essentially repeated his earlier arguments.
2
That section provides (in relevant part):
Whenever a highway has been divided into two or more roadways
by means of intermittent barriers or by means of a dividing section
of not less than two feet in width, either unpaved or delineated by
curbs, double-parallel lines, or other markings on the roadway, it is
unlawful [ ] (2) To make any left \ 1 turn with the vehicle on the
divided highway, except through an opening in the barrier
designated and intended by public authorities for the use of
vehicles or through a plainly marked opening in the dividing
section.
(emphasis added.)
3

Case 8:17-cv-00297-VBF-MRW Document 114 Filed 02/23/18 Page 4 of 14 PagelD#:824

1

comply with their instructions. He also referenced a negative reaction he

2

received from one of the officers when Plaintiff indicated that he was taking his

3

children to soccer practice at the time of the incident. (Docket # 101 at 9.)

4

From this, Plaintiff contends that the police officers impugned his gender,

5

religion, and Mexican heritage.

6

The Summary Judgment Submissions

7

Plaintiffs complaint alleged “unlawful stops, search and seizure

8

systematically [sic] by Costa Mesa PD [and] its police officers.” (Docket # 1

9

at 8.) He also broadly complained about discrimination based on “race,

10

religion, gender, racial profiling victimization.” (Id.) The complaint alleged

11

that these actions violated Plaintiffs Fourth, Fifth, and Fourteenth Amendment

12

rights under the U.S. Constitution.

13

After the close of discovery, the defense moved for summary judgment.

14

(Docket # 94.) The defense motion thoughtfully divided Plaintiffs claims into

15

components regarding the traffic stop, the inventory search of the vehicle, and

16

its impoundment. Additionally, the defense attempted to analyze what it

17

understood to be Plaintiffs Equal Protection Clause, Takings Clause, and

18

Monell claims against the officers and the city’s police department.

19

The significant portions of the defense submissions include a declaration

20

from a traffic engineer who is the Costa Mesa director of public services. That

21

declaration provides a factual explanation of the state of the median on

22

Newport Boulevard at the scene of the incident. (Docket # 94-4.) As noted

23

above, the Court reviewed the video and audio recordings of the traffic stop and

24

the parties’ numerous photos of the scene. In their declarations, the officers

25

both state that they stopped Plaintiff for making “an unlawful left turn over a

26

divided highway in violation of California Vehicle Code section 21651(a).”

27

(Docket # 94-1 at 2; 94-2 at 2.) The officers also stated that they impounded

28
4

Case 8:17-cv-00297-VBF-MRW Document 114 Filed 02/23/18 Page 5 of 14 PagelD#:825

1

Plaintiffs vehicle under CVC section 2265 l(o) because the vehicle was “found

2

or operated upon a highway” with a long-expired registration. (Id. at 3.)

3

In response to the motion, Plaintiff filed a “brief’ containing a jumble of

4

legal arguments, photocopies of various traffic regulations, and a Ninth Circuit

5

decision (Brewster v. Beck. 859 F.3d 1194 (9th Cir. 2017)) involving the

6

inapplicable impoundment policy of the City of Los Angeles. (Docket # 99.)

7

He also submitted a declaration regarding the event (Docket #101) and his own

8

photos of the area. (Docket # 107.) Plaintiff claims (a) he knows the owners or

9

employees of the coffee shop where his vehicle came to rest and (b) they would

10

have let him leave his vehicle there in lieu of the police impounding it. (Docket

11

#101 at 3-4.) However, Plaintiff offered no non-hearsay proof of these facts

12

from any competent witness.3

13

Plaintiff vigorously disputes the legal conclusions that the defense draws

14

regarding the traffic stop and impounding of his vehicle. However, there does

15

not appear to be any material dispute regarding the road condition where the

16

initial incident occurred or where the vehicle was impounded.

17
18
19
20

21
22
23
24

25
26
27

28

3

The Court disregards Plaintiffs statement of controverted facts.
(Docket # 100.) That submission consists of Plaintiff s handwritten “disputes”
scrawled on the defense’s statement of uncontroverted facts. Plaintiffs
submission neither constitutes nor points the Court to relevant, admissible
evidence. FRCP 56(c)(l, 4). The Court recognizes its obligation to liberally
construe a self-represented litigant’s submission. However, that is no substitute
for a party’s failure to present evidence in a recognizable manner.
The Court also has little insight into the meaning of materials
related to Plaintiffs subsequent administrative complaints and tort claims filed
with the City (attached to several of Plaintiff s filings). Plaintiffs bare
reference at the hearing to his First Amendment right to redress grievances does
not explain the significance of these items to the officers’ conduct or his other
recognizable claims against the defense.
5

Case 8:17-cv-00297-VBF-MRW Document 114 Filed 02/23/18 Page 6 of 14 PagelD#:826

1

RELEVANT FEDERAL LAW AND ANALYSIS

2

Standard of Review

3

Under Federal Rule of Civil Procedure 56(c), summary judgment is

4

appropriate when there is no genuine issue as to any material fact and the

5

moving party is entitled to judgment as a matter of law. A “genuine issue”

6

exists only if there is a sufficient evidentiary basis upon which a reasonable jury

7

could return a verdict for the non-moving party. Anderson v. Liberty Lobby.

8

Inc.. 477 U.S. 242, 249 (1986).

9

The party seeking summary judgment must present admissible evidence

10

that establishes that there is no genuine, material factual dispute and that he is

11

entitled to judgment as a matter of law. Celotex Corp. v. Catrett. 477 U.S. 317,

12

323 (1986). The Court views the inferences drawn from the underlying facts in

13

a light most favorable to the non-moving party. Matsushita Elec. Indus. Co..

14

Ltd, v. Zenith Radio Corn.. 475 U.S. 574, 587 (1986). “Where the record taken

15

as a whole could not lead a rational trier of fact to find for the nonmoving

16

party,” there is no genuine issue for trial. Ricci v. DeStefano. 557 U.S. 557,

17

586 (2009) (quoting Matsushita).

18

To defeat a summary judgment motion, the nonmoving party must

19

present more than “a mere ‘scintilla’ of evidence[;] rather, the nonmoving party

20

must introduce some significant probative evidence tending to support the

21

complaint.” Summers v. Teichert & Son. Inc.. 127 F.3d 1150, 1152 (9th Cir.

22

1997) (quotation omitted, emphasis added). The nonmoving party may not rest

23

on its own conclusory allegations or mere assertions; it must set forth non-

24

speculative evidence of specific facts. Emeldi v. University of Oregon, 673

25

F.3d 1218, 1233 (9th Cir. 2012).

26

A court need not find a genuine issue of fact where the non-moving

27

party’s “self-serving” presentation puts forward “nothing more than a few bald,

28
6

Case 8:17-cv-00297-VBF-MRW Document 114 Filed 02/23/18 Page 7 of 14 PagelD#:827

1

uncorroborated, and conclusory assertions rather than evidence.” FTC v.

2

Neovi. Inc.. 604 F.3d 1150, 1159 (9th Cir. 2010). Specifically, a court may

3

“disregard a self-serving declaration for purposes of summary judgment” when

4

the declaration states “facts beyond the declarant’s personal knowledge and

5

“provide[s] no indication how [the declarant] knows [these facts] to be true.”

6

SEC v. Phan, 500 F.3d 895, 910 (9th Cir. 2007) (quotations omitted); see also

7

Hexcel Corp. v. Ineos Polymers. Inc.. 681 F.3d 1055, 1063 (9th Cir. 2012)

8

(declarations “must be made with personal knowledge; declarations not based

9

on personal knowledge are inadmissible and cannot raise a genuine issue of

10

material fact”).

11

Unreasonable Traffic Stop

12

Law enforcement officers must conduct warrantless traffic stops in a

13

manner that complies with the Fourth Amendment. Brendlin v, California, 551

14

U.S. 249, 255-59 (2007). The police “need only reasonable suspicion - that is,

15

a particularized and objective basis for suspecting the particular person

16

stopped” of breaking the law - to justify such a stop. Heien v. North Carolina,

17

U.S.

, 135 S. Ct. 530, 536 (2014) (quotations omitted). A reasonable

18

suspicion exists if “specific, articulable facts [ ] together with objective and

19

reasonable inferences suggest that the persons detained by the police are

20

engaged in criminal activity.” United States v. Hartz, 458 F.3d 1011, 1017 (9th

21

Cir. 2006) (quotation omitted); McCain v. Stockton Police Dep’t 695 F. App’x

22

314 (9th Cir. 2017) (same). That reasonable suspicion may “rest on a mistaken

23

understanding” of the law. Heien, 135 S. Ct. at 536.

24

The standard for determining whether probable cause or reasonable

25

suspicion exists “is an objective one; it does not turn either on the subjective

26

thought processes of the officer or on whether the officer is truthful about the

27

reason for the stop.” United States v. Magallon-Lopez, 817 F.3d 671, 675 (9th

28
7

Case 8:17-cv-00297-VBF-MRW Document 114 Filed 02/23/18 Page 8 of 14 PagelD#:828

1

Cir. 2016). For this reason, a trial jury is instructed to consider (and a court

2

ruling on a summary judgment motion must evaluate) whether “an objectively

3

reasonable police officer would conclude there is a fair probability that the

4

plaintiff has committed or was committing a crime” at the time of the traffic

5

stop. 9th Cir. Model Civil Instr. 9.23 (Fourth Amendment-Unreasonable

6

Seizure of Person-Probable Cause Arrest) (2017). This review is based on “the

7

circumstances known to the officer[s] at the time” of the incident. Id. (citing

8

Devenbeck v. Alford. 543 U.S. 146, 152-53 (2004). “Video evidence” of

9

“apparent traffic offenses” may establish reasonable suspicion and lead to the

10

entry of summary judgment in favor of the police. Neidermeyer v. Caldwell,

11

F. App’x

, 2017 WL 6014359 at *1 (9th Cir. Dec. 5, 2017).
* * *

12
13

The officers are entitled to summary judgment on Plaintiffs claim that

14

they improperly stopped him for a suspected traffic violation. The state vehicle

15

code prohibits a driver from making a left turn on a divided road such as this

16

street. CVC § 21651. The undisputed evidence makes clear that any

17

reasonable officer would have reasonable cause to believe that Plaintiff violated

18

this provision while driving.

19

The officers’ declarations, the video of the stop, and Plaintiffs own

20

admitted sequence of events make clear that Plaintiff drove over the low

21

median that divides traffic on Newport Boulevard to make a left turn. Both

22

officers observed Plaintiff make the turn over the divider. And that was easily

23

confirmed during the Court’s review of the dashboard video of the incident.

24

Neidermeyer, 2017 WL 6014359 at *1. The plain evidence shows that the

25

street was marked with a substantial brick-and-concrete delineation that was

26

more than the required width. Id. There can be no dispute - he crossed over

27

the low brick area to make a left turn. The officers identified specific and

28
8

Case 8:17-cv-00297-VBF-MRW Document 114 Filed 02/23/18 Page 9 of 14 PagelD#:829

1

articulable facts that hew to the statutory prohibition on making such a turn.

2

Heien, 135 S. Ct. at 536; Hartz. 458 F.3d at 1017.

3

Moreover, there is no evidence from which to conclude that either of the

4

two statutory exceptions in the vehicle code apply. If the low section of the

5

median were to be considered “an opening in the barrier” between the traffic

6

lanes under the vehicle code, there is no evidence that the opening was

7

“designated and intended by public authorities for the use of vehicles.” To the

8

contrary, the only evidence on the subject (the declaration from the city’s main

9

traffic engineer) is that the city did not intend for the lower curb to be a break in

10

the median for turning vehicles. Rather, it was expressly intended to facilitate

11

the safety of the crash cushions separating traffic on the street.4 (Docket # 94-4

12

at 4.)

13

As for the second exception, there is no proof that there was a “plainly

14

marked opening” in the barrier that authorized drivers to turn left over the brick

15

material. There was no visible sign at the location allowing such a turn.

16

Plaintiff presented a photo showing an arrow painted on the roadway, which he

17

claims authorized drivers to turn left. But Plaintiff offers no evidence beyond

18

his bare lay opinion that the arrow related in any way to making a turn across

19

the barrier. Neovi, Inc., 604 F.3d at 1159. To the contrary, reasonable

20

Southern California drivers would undoubtedly understand that the arrow

21

actually designated the lane of traffic for a left turn at the approaching regulated

22

intersection, not a sharp turn across numerous lanes of traffic through a small

23

gap in the divider. No reasonable jury could fairly conclude that the arrow

24
25

26
27
28

4

According to the Sethuraman declaration, the reduction of the
median “to two inches in height 25 feet in front of the [crash cushions] was not
done for motorists traveling southbound on Newport Blvd. to travel through it
and make a left turn, but to not adversely affect the performance” of the crash
devices. The city implemented this design to comply with state traffic
regulations. Id
9

Case 8:17-cv-00297-VBF-MRW Document 114 Filed 02/23/18 Page 10 of 14 PagelD#:830

1

painted on the asphalt transformed the median into a “plainly marked” left turn

2

opportunity in the middle of a busy block.

3

But in any event, it is irrelevant whether Plaintiff thought he was entitled

4

to turn left (based on the painted arrow in his traffic lane). The test is whether

5

a reasonable officer in the position of the defendants would have believed that

6

the driver violated the law. Magallon-Lopez, 817 F.3d at 675; Devenbeck, 543

7

U.S. at 152-53. And the evidence (photos, video) conclusively demonstrates

8

that the defendants’ police vehicle was on the opposite side of Newport

9

Boulevard (that is, on the side toward which Plaintiff turned). Plaintiff offers

10

no proof that the officers could possibly have seen the marking on the roadway;

11

it was blocked by the wall of crash cushions. So, all that a reasonable officer in

12

the defendants’ position would have seen was Plaintiff driving over the raised

13

median that divided this major street to make his left turn. Again, the only

14

proof presented to the Court demonstrates the reasonableness of the officers’

15

actions.5

16

Even interpreting the evidence in the light most favorable to Plaintiff, he

17

can’t show that a reasonable jury could plausibly conclude otherwise. Plaintiff

18

failed to present “significant probative evidence” to demonstrate that these

19

defendants lacked a reasonable suspicion to conduct the traffic stop. Summers,

20

127 F.3d at 1152. Summary judgment in favor of the defense is appropriate

21

because there is no genuine dispute for trial. Ricci, 557 U.S. at 586.

22
23
24

25
26
27

28

5

To the extent that the officers were wrong in evaluating any legal
distinction between the two-inch and six-inch brick medians, that mistake is
insufficient to defeat summary judgment. Heien, 135 S. Ct. at 536.
The Court is not inclined to take up the defense’s arguments
regarding qualified immunity. However, in the alternative, the Court easily
concludes that Plaintiffs claims regarding the height of the median were not so
“clearly established” that “every reasonable official” would have known that
this traffic stop violated the federal constitution. Ashcroft v. al-Kidd, 563 U.S.
731,742 (2011).
10

Case, 8:17-cv-00297-VBF-MRW Document 114 Filed 02/23/18 Page 11 of 14 Page ID #:831

1

Search and Impoundment Claims

2

Plaintiff also contends that the police improperly impounded and

3

searched his vehicle. The Court’s adverse conclusion regarding Plaintiffs

4

traffic stop claim has a significant impact on the analysis of these derivative

5

issues.

6

A seizure of a vehicle following a traffic stop must be reasonable under

7

the Fourth Amendment. However, impoundment of a car may be reasonable

8

and proper “if the driver’s violation of a vehicle regulation prevents the driver

9

from lawfully operating the vehicle, and also if it is necessary to remove the

10

vehicle from an exposed or public location.” Miranda v. City of Cornelius, 429

11

F.3d 858, 865 (9th Cir. 2005). “The violation of a traffic regulation justifies

12

impoundment of a vehicle if the driver is unable to remove the vehicle from a

13

public location without continuing its illegal operation.” Id.; Ramirez v. City of

14

Buena Park, 560 F.3d 1012, 1025 (9th Cir. 2009) (affirming summary judgment

15

in favor of defense where vehicle impounded from drugstore parking lot);

16

Grossman v. Popp, 696 F. App’x 248 (9th Cir. 2017) (same, citing Miranda and

17

Ramirez).

18

California law is in accord with this. Under California Vehicle Code

19

section 2265 l(o)(l), a police officer may “remove a vehicle” if it “is found or

20

operated upon a highway, public land, or an offstreet parking facility” with a

21

registration that has been expired for more than six months. The state statute

22

further defines an offstreet parking facility to include “a privately owned

23

facility for offstreet parking if a fee is not charged for the privilege to park and

24

it is held open for the common public use of retail customers” - like a parking

' 25
26
27

lot at a mini-mall. Cal. Veh. C. § 22651 (o)(5).
Plaintiff has not presented any evidence from which a jury could
conclude that the police officers acted unreasonably. The uncontroverted

28
11

Case, 8:17-cv-00297-VBF-MRW Document 114 Filed 02/23/18 Page 12 of 14 PagelD#:832

1

evidence (statements from the officers, and Plaintiffs own admissions in his

2

complaint and declaration) show that the registration on Plaintiffs vehicle

3

expired nearly a year before the lawful traffic stop. At the time of the stop,

4

Plaintiff was operating the vehicle on a public street in violation of the law.

5

The vehicle did not come to rest at any location (such as Plaintiffs residence or

6

a safe space that he controlled) where he could properly leave his unregistered

7

and uninsured vehicle indefinitely - Plaintiff stated on the video that he

8

couldn’t afford to pay his registration for a period of time. Rather, he stopped

9

at a parking lot for a commercial business.6 No jury could factually find the

10

impoundment of the vehicle under these circumstances and in this obviously

11

exposed location to be unreasonable. Miranda. 429 F.3d at 865; Ramirez, 560

12

F.3d at 1025.

13

* * *

14

The Court summarily recommends granting summary judgment on

15

Plaintiffs unlawful search claim. “Once a vehicle has been legally impounded,

16

the police may conduct an inventory search without a warrant.” United States

17

v. Torres. 828 F.3d 1113, 1120 (9th Cir. 2016); United States v. Cervantes, 703

18

F.3d 1135, 1141 (9th Cir. 2012). Such a warrantless search is proper if it is

19

“aimed at protecting the owner’s property and at protecting the police from the

20

owner charging them with having stolen, lost, or damaged his property.”

21

United States v. Casares, 533 F.3d at 1064, 1074 (9th Cir. 2008).

22

That’s exactly what the evidence establishes here. The officers testified

23

(and can be heard on the recording explaining to Plaintiff) that they conducted

24
25

26
27

28

6

Plaintiffs reading of the impoundment statute and its definition of
the term “offstreet parking facility” is simply wrong - the plain text appears to
include this type of property. Neovi. And his contentions that he could have
gotten permission from the store owner to leave his vehicle at the coffee shop
and that the store was permanently closed are entirely unsupported by any
admissible, nonhearsay evidence.
12

Case, 8:17-cv-00297-VBF-MRW Document 114 Filed 02/23/18 Page 13 of 14 PagelD#:833

1

the inventory search incident to the impounding to “insure against later claims

2

that property was lost during storage.” (Docket # 94-2 at 3.) Plaintiff offered

3

no evidence to the contrary. The defense is entitled to summary judgment

4

regarding Plaintiffs vehicle search claim. Torres. 828 F.3d at 1120.

5

Remaining Claims

6

The defense diligently attempted to address and rebut the remainder of

7

what it took to be Plaintiffs civil rights causes of action. (Docket # 94

8

at 22-31.)

9

It needn’t have bothered. Plaintiffs conclusory complaint and summary

10

judgment opposition fail to make clear in any meaningful way what his other

11

constitutional claims are. There surely is no evidence of any racial, religious,

12

or gender bias detectable in any of the officers’ recorded interaction with

13

Plaintiff (even if Plaintiff took umbrage from his latest encounter with the

14

police). And Plaintiff makes no serious attempt to present evidence of any

15

improper training or policies in place with the Costa Mesa Police Department

16

that caused him injury.

17

Finally, Plaintiffs unsupported grievances about being ignored or treated

18

uncordially by other police officials when he complained about the (legal)

19

traffic stop and (legal) impoundment of his unregistered car cannot lead to

20

relief. None of these claims can possibly lead to a favorable verdict at trial.

21

Celotex Corp., 477 U.S. at 323.

22

CONCLUSION

23

Over the past few years, the Court has become quite familiar with

24

Plaintiffs breathless, conclusion-laden pleading style.7 Some of his cases have

25

survived the screening / Rule 12(b)(6) stage. However, Plaintiff has been

26
7

27
28

The docket reflects that he’s attempted to pursue nearly two dozen
civil rights actions against various schools, police departments, and court
officials in Orange County.
13

Case, 8:17-cv-00297-VBF-MRW Document 114 Filed 02/23/18 Page 14 of 14 PagelD#:834

1

unable to develop or present any admissible evidence to support his accusations

2

to merit proceeding past the scrutiny of the summary judgment process. The

3

Court recommends the entry of judgment against Plaintiff as to all of his

4

articulated and inchoate constitutional claims arising from the Newport

5

Boulevard incident.

6

IT IS THEREFORE RECOMMENDED that the District Judge issue an

7

order: (1) accepting the findings and recommendations in this Report;

8

(2) granting the defense motion for summary judgment; and (3) dismissing the

9

action with prejudice.

10
11
12

Dated: February 23, 2018
HON. MICHAEL R. WILNER
UNITED STATES MAGISTRATE JUDGE

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
14

Additional material
from this filing is
available in the
Clerk's Office.

